U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rodney Lavalais v. United States of America,
S.Ct. No. 20-5489

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 20,
2020, and placed on the docket on August 25, 2020. The government’s response is due on
September 24, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 26, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5489
LAVALAIS, RODNEY
USA

CELIA C. RHOADS
ASSISTANT FEDERAL PUBLIC DEFENDER
500 POYDRAS STREET
SUITE 318
HALE BOGGS FEDEDRAL BUILDING
NEW ORLEANS, LA 70130
504-589-7930
CELIA_RHOADS@FD.ORG

